<html>
<title> - NOMINATION OF CHRISTOPHER E. O'CONNOR, TO BE ASSISTANT SECRETARY FOR CONGRESSIONAL AND LEGISLATIVE AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 114-755]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-755

 NOMINATION OF CHRISTOPHER E. O'CONNOR, TO BE ASSISTANT SECRETARY FOR 
  CONGRESSIONAL AND LEGISLATIVE AFFAIRS, U.S. DEPARTMENT OF VETERANS 
                                AFFAIRS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2016

                               __________

       Printed for the use of the Committee on Veterans' Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-819 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                             June 21, 2016
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................     1
Rounds, Hon. Mike, U.S. Senator from South Dakota................    26
Manchin, Hon. Joe, III, U.S. Senator from West Virginia..........    28
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    30
Boozman, Hon. John, U.S. Senator from Arkansas...................    31
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    34

                               WITNESSES

O'Connor, Col. Christopher E., USM (Ret.), Nominee, Assistant 
  Secretary for Congressional and Legislative Affairs, U.S. 
  Department of Veterans Affairs.................................     2
    Prepared statement...........................................     4
    Response to prehearing questions submitted by Hon. Johnny 
      Isakson....................................................     5
    Questionnaire for Presidential nominees......................     7
    Letter from the Office of Government Ethics..................    20
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    21
    Response to request arising during the hearing by Hon. Dan 
      Sullivan...................................................    39
    Response to posthearing questions submitted by Hon. Johnny 
      Isakson....................................................    40

 
 NOMINATION OF CHRISTOPHER E. O'CONNOR, TO BE ASSISTANT SECRETARY FOR 
  CONGRESSIONAL AND LEGISLATIVE AFFAIRS, U.S. DEPARTMENT OF VETERANS 
                                AFFAIRS

                              ----------                              


                         TUESDAY, JUNE 21, 2016

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson 
presiding.
    Present: Senators Isakson, Boozman, Cassidy, Rounds, 
Sullivan, Blumenthal, Brown, Tester, Hirono, and Manchin.

      OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. I call this hearing of the Senate Foreign 
Relations--Senate Veterans' Affairs Committee together. We just 
left Foreign Relations. That is why I did that, I guess.
    Welcome. We are glad to have you, Colonel. We will be with 
you in 1 second. We will have opening statements, then we will 
introduce you accordingly, and I will make an opening statement 
about the same.
    We welcome Colonel O'Connor for being here today. We 
appreciate his public service to the Veterans Administration 
and the U.S. Military. He has had a distinguished career. We 
have enjoyed working with him at the VA and will enjoy working 
with him in the future, so I am sure this confirmation hearing 
will go well. With that said, I turn to the Ranking Member, 
Senator Blumenthal, for any opening statement he may make.

 OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, RANKING MEMBER, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Just very briefly, Mr. Chairman.
    Col. O'Connor, I want to thank you for your service to our 
Nation, as well as your wife, Debbie, and your children, Katie 
and Colin. I think they may be here today. Families share in 
public service, as we all know.
    I want to thank you for the work you have done already with 
my office on various issues concerning Connecticut's Veterans 
Administration activities, including the West Haven VA Hospital 
where you were very important, assisting us in seeking to make 
the pedestrian access safer. This work is ongoing and should be 
completed as quickly as possible. We will be talking more about 
that as well as about other issues over the coming months.
    I thank you again for your service.
    Chairman Isakson. Under the rules of the Committee, the 
testimony of all Presidential nominees appearing before the 
Committee must be taken under oath.
    Colonel, I would ask you to raise your right hand and 
repeat after me. Do you solemnly swear or affirm that the 
testimony you are about to give before the Senate Committee on 
Veterans' Affairs will be the truth, the whole truth, and 
nothing but the truth; so help you, God?
    Colonel O'Connor. I do.
    Chairman Isakson. Please be seated.
    I would be happy to recognize you for up to 5 minutes for 
any opening statement you would like to make.

STATEMENT OF COL. CHRISTOPHER E. O'CONNOR, USM (RET.), NOMINEE 
   FOR ASSISTANT SECRETARY FOR CONGRESSIONAL AND LEGISLATIVE 
          AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Colonel O'Connor. Thank you very much, Chairman Isakson, 
Ranking Member Blumenthal, distinguished Members of the 
Committee on Veterans' Affairs. Thank you for the opportunity 
to testify before you today and for your consideration of my 
nomination to serve as the Department of Veterans Affairs 
Assistant Secretary for Congressional and Legislative Affairs. 
I am deeply humbled by President Obama's nomination and the 
confidence that both he and Secretary McDonald have shown in 
me.
    I would like to recognize my family members that are here 
with me today: my wife, Debbie, who has supported me for 32 
years, many of those of which I have been deployed, serving my 
country; my daughter, Katie, who has one class left for her 
degree at University of Mary Washington; and my son, Colin, who 
is a sophomore at Rensselaer Polytechnic Institute. Their 
support has been invaluable for me.
    I would also like to thank my parents, Bernie and Jane 
O'Connor. My dad, who is no longer with us, was a World War II 
veteran Marine who served in the Corps and participated in the 
landings at Iwo Jima and Okinawa. I would also like to thank my 
father-in-law, Jack Keane, who is a retired Marine and Vietnam 
veteran. Both of them had a tremendous influence on me and 
taught me a great deal about leadership.
    I am proud to say that my oldest son, Brian, who was 
commissioned a second lieutenant in the Marine Corps last 
summer and is now going through flight training in NAS 
Pensacola, is carrying on a tradition of military service.
    I was privileged to serve in the Marine Corps for over 30 
years. During my career as a Marine aviator, I was fortunate to 
serve with young men and women who truly represented the best 
there is about our country.
    While I was in the Marine Corps, I also worked 
congressional affairs, where I learned firsthand the value of 
working together with Congress to solve problems, to take care 
of Marines, and create an unparalleled partnership. As an air 
station commander at MCAS Miramar in California, I worked very 
closely with the local congressional delegation on preserving 
the operational capabilities of the air station and taking care 
of Marines. A congressional delegation's support was essential 
to accomplishing these important tasks.
    When I was offered the opportunity to work at VA in early 
2010 after I had retired, I quickly accepted it. I publicly 
want to thank former Assistant Secretary Joan Mooney for giving 
me the chance to continue to serve those I have served with.
    Working on, and in support of, veterans issues is the right 
post-military duty for me. It has enabled me to continue to 
give back, to serve not only those I served with but to serve 
my son's generation as well. It is a passion for me. It is 
something that really is not about work, it is about service, 
not about the money but about caring, and it is about being 
part of something much bigger than myself.
    That is why I am firmly committed to carrying out the MyVA 
Transformation that Secretary McDonald has outlined for the 
Department. Placing veterans at the center of everything the 
Department does is the right thing to do.
    Under Secretary McDonald's leadership and Congress's 
support, the Department is changing. It is an irreversible 
change that is destined to make VA the number 1 customer 
service agency in the Federal Government and the employer of 
choice of veterans and health care professionals. It is an 
honor to be part of that transformational journey, to see the 
change, and to be part of the solution.
    I have been extremely fortunate to work on a daily basis in 
VA with a talented group of individuals in the Office of 
Government Relations, who are dedicated to VA's mission and 
care deeply for the veterans they serve. I am very appreciative 
of everything they do on a daily basis and for the support they 
have given me over the last 2 years.
    During my tenure in VA's Office of Government Relations, I 
have tried to ensure that there have been open lines of 
communications between the Department and Congress as we work 
together on so many important issues for veterans. I have 
increased engagement and increased proactive briefings on VA's 
initiatives, promoted increased access to senior leaders within 
the Department, and worked to create a collaborative 
relationship, especially in regards to veteran-centric 
legislation. Working closely together with your staffs on 
legislation such as the Choice Program and Appeals 
Modernization has demonstrated how important the congressional-
VA partnership is for producing better results for veterans.
    I firmly respect Congress's oversight role, and if 
confirmed, I will work tirelessly to improve the Department's 
responsiveness to congressional requests for information. I 
know there have been times where we could have done a better 
job and be more responsive, and I promise you I will work to 
improve our performance.
    In closing, my experience in the Marine Corps working 
congressional affairs, as a base commander working with the 
local community and public leaders, and the knowledge I have 
gained over the last 6 years working in VA, have given me the 
skills and leadership and management experience to be an 
effective Assistant Secretary for Congressional and Legislative 
Affairs.
    If confirmed, I look forward to working with you to further 
enhance the relationships between the Department and Congress 
so, together, we can meet the important needs of our veterans 
we proudly serve.
    Thank you very much for the opportunity to testify before 
you today, and I look forward to your questions.
    [The prepared statement of Christopher E. O'Connor 
follows:]
Prepared Statement of Christopher E. O'Connor, Nominee to be Assistant 
 Secretary, Congressional and Legislative Affairs, U.S. Department of 
                            Veterans Affairs
    Chairman Isakson, Ranking Member Blumenthal, Distinguished Members 
of the Committee on Veterans' Affairs, Thank you for the opportunity to 
testify before you today and for your consideration of my nomination to 
serve as the Department of Veterans Affairs Assistant Secretary for 
Congressional and Legislative Affairs. I am deeply humbled by President 
Obama's nomination and the confidence that both he and Secretary 
McDonald have shown in me.
    I would like to recognize my family members that are with me today. 
My wife Debbie who has supported me for 32 years, many of those when I 
have been off somewhere else, my daughter Katie, who has one class left 
at University of Mary Washington till graduation, and my son Colin, who 
is a sophomore at Rensselaer Polytechnic Institute. Their support has 
been invaluable to me.
    I would also like to thank my parents Bernie and Jane O'Connor. My 
Dad is no longer with us. He was a World War II Marine who participated 
in the landings at Iwo Jima and Okinawa. I would also like to thank my 
father-in-law, Jack Keane, who is a Retired Marine and Vietnam Veteran. 
Both of them had a tremendous influenced on me and taught me a great 
deal about leadership. I am also proud to say that my oldest son Brian, 
who was commissioned a second lieutenant in the Marine Corps last 
summer, and is now going through flight training at NAS Pensacola, 
Florida, is carrying on a tradition of military service.
    I was privileged to serve in the United States Marine Corps for 
over thirty years. During my career I was fortunate to serve with young 
men and women who truly represented the best there is about our 
Country. While I was in the Marine Corps I also worked congressional 
affairs, and there I learned first-hand the value of working together 
with Congress to solve problems, to take care of Marines, and create an 
unparalleled partnership.
    When I was offered the opportunity to work at VA in early 2010, I 
quickly accepted it. I publically want to thank former Assistant 
Secretary Joan Mooney for giving me the chance to continue to serve 
those I served with. Working on, and in support of, Veterans issues was 
the right post-military duty for me. It has enabled me to continue to 
give back, to serve not only those I served with, but to serve my son's 
generation as well. This is a passion for me and something that is not 
about work, but about service, not about money, but about caring. It is 
about being part of something much bigger than yourself.
    That is why I am firmly committed to carrying out the MyVA 
Transformation that Secretary McDonald has outlined for the Department. 
Placing the Veteran at the center of everything the Department does is 
the right thing to do. Under Secretary McDonald's leadership, and with 
Congressional support, the Department is changing, and that includes 
the Office of Government Relations. In accordance with MyVA, we 
reorganized the office in order to be more responsive to you, our 
customers. We created an Outreach Directorate that is aligned with the 
Department's five districts that focuses on those Members of Congress 
who are not members of VA's committees of jurisdiction. The 
reorganization has improved our interactions with those Member offices 
and helped to provide reliable points of contact for staff to turn to 
for information. MyVA is an irreversible change that is destined to 
make VA the number one customer service agency in the Federal 
Government and the employer of choice of Veterans and health care 
professionals. It is an honor to be part of this transformation 
journey; to see the change; and to be part of the solution.
    I have been extremely fortunate to work on a daily basis in VA with 
a group of talented individuals in the Office of Congressional and 
Legislative Affairs who are dedicated to VA's mission, and care deeply 
for the Veterans they serve. I am very appreciative of everything they 
do on a daily basis, and for the support they have given me over the 
last two years.
    During my tenure in VA's Office of Congressional and Legislative 
Affairs, I have tried to ensure there have been open lines of 
communication between the Department and Congress as we worked together 
on so many important issues for Veterans. I have increased engagement, 
promoted increased access to senior leaders, and worked to create a 
collaborative relationship, especially with regards to Veterans centric 
legislation. Working closely together with your staffs on legislation, 
such as the Choice Program, has demonstrated how important the 
Congressional--VA partnership is for producing better results for 
Veterans. I firmly respect Congress' oversight role and if confirmed, 
will work tirelessly to improve the Department's responsiveness to 
Congressional requests for information. I know there have been times 
when we could have been more responsive, and I promise you I will work 
to improve upon our performance and to streamline internal VA processes 
that contribute to unnecessary delays in getting information to 
Congress.
    In closing, my experiences in the Marine Corps working 
congressional affairs, as a base commander working with the local 
community and public leaders, and the knowledge I have gained in VA 
over the last six years, have given me the skills, leadership, and 
management experience to effectively lead the Office of Congressional 
and Legislative Affairs.
    If confirmed, I look forward to working with you to further enhance 
the relationship between the Department and Congress, so that together, 
we can meet the needs of the Veterans we proudly serve. Thank you very 
much for the opportunity to testify before you today and I look forward 
to your questions.

    [The prehearing questions to Christopher E. O'Connor 
follows:]
 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
    Christopher E. O'Connor, Nominee to be Assistant Secretary for 
  Congressional and Legislative Affairs, U.S. Department of Veterans 
                                Affairs
    Question 1.  During your time performing the duties of the 
Assistant Secretary for Congressional and Legislative Affairs, what 
have been the greatest challenges you have faced and what steps have 
you taken to address those challenges?
    Response. The greatest challenge I have faced during the last two 
years has been balancing requirements against available personnel 
resources. Our office operates at an extraordinary pace. Our employees 
handle a multitude of important issues, with varying degrees of 
priority and sensitivity associated with each of them. To meet this 
challenge, we reorganized the office to balance the available personnel 
resources to focus on both the Members of our committees of 
jurisdiction and staff and also on the other Members of Congress. This 
reorganization has enabled us to provide greater support to Congress. 
To ensure we are focusing on the most pressing priorities, I meet with 
the directors each morning to review and reprioritize our work efforts 
for the day. During this meeting we candidly discuss how we are doing 
and where we are having problems and need to focus our attention on or 
ask for assistance.
    One additional challenge we continuously face is receiving timely 
information from a Department with the scope and breadth of issues that 
are handled by VA. In addition to policy and program questions, the 
office frequently receives questions and inquiries related to actions 
being taken at the facility level. In FY 2015 and through mid-year of 
FY 2016 combined, the Department has provided responses to more than 
4,400 requests for information, facilitated over 1200 briefings, and 
prepared witnesses for 117 hearings.
    If confirmed, I will continue to work directly with VA senior 
leadership to ensure Subject Matter Experts within VA Central Office, 
as well as in the field in the 1700 points of care across the country, 
are aware of the importance of providing timely information to support 
Congressional requests for information.

    Question 2.  Please describe the system or process used to track 
incoming requests from Members of Congress, for categorizing the 
relative urgency of various types of requests, and for tracking the 
actions taken to address pending requests.
    Response. Our office uses a proprietary Congressional Knowledge 
Management System (CKMS) to track incoming Congressional requests for 
information, hearing deliverables, and briefing requests. CKMS allows 
for tracking by sub-unit working the item as well as by the Member 
requesting the information. Background documents, emails and responses 
can be included with each item. A variety of reports can be generated 
to determine the age pending of Congressional inquiries. The urgency of 
requests is determined by the individual receiving the request.
    Congressional inquiries come to VA through any of the office's 
congressional affairs employees, who are responsible for inputting the 
information into CKMS, tasking it to the appropriate VA organization 
for response, and following up to ensure the item is responded to. Each 
employee works closely with their colleagues to ensure inquiries are 
reviewed and prioritized appropriately.
    If confirmed, I would review opportunities to enhance the 
organization's ability to monitor and track these requests by expanding 
CKMS or by examining the use of an alternative tracking system.

    Question 3.  What metrics does VA track to gauge whether 
Congressional offices are receiving timely, appropriate responses to 
their requests and what timeliness goals does VA have for responding to 
various types of Congressional requests?
    Response. The Department and the office set goals and track metrics 
for responsiveness, and I also encourage the development of quality 
relationships between office personnel and the Congressional staff they 
interact with. These relationships are based on our ability to provide 
timely and accurate information, our ability to have productive and 
proactive conversations, and gather insights and information to better 
inform Department policy and actions.
    The continuous and open dialog that the office had with 
Congressional staff during the development and improvements made to the 
draft appeals modernization legislation is indicative of the importance 
of strong relationships and open lines of communications.
    While the Department attempts to proactively offer briefings on 
high-profile topics and provide information as quickly as possible, we 
certainly have significant room for improvement, and if confirmed, will 
continue to work to improve on the office's performance.

    Question 4.  What efforts, if any, have been made to compare those 
timeliness goals to the goals or response times for Congressional 
liaison offices at other agencies or to learn best practices from other 
agencies?
    Response. VA is unique in its size and scope amongst civilian 
agencies, and VA's Office of Government Relations (OGR) is responsible 
for responding to Congress on behalf of the entire Department--VHA, 
VBA, NCA, OALC, HRA, IT, and more. In many cases in other Departments 
and agencies, each branch or division has its own Congressional Affairs 
office that is responsible for a significantly narrower scope of 
activity with Congress. This was the case when I worked in the Marine 
Corps Legislative Affairs office.
    We can always learn from best practices of other organizations and, 
if confirmed, I look forward to working to identify ways to streamline 
VA processes. Shortly after assuming temporary responsibility for 
leadership of the office, I sought advice from respected and successful 
former Assistant Secretaries for Legislative Affairs in other agencies, 
and I have tried to incorporate that guidance to improve the office's 
performance. One specific idea is working with the Office of General 
Counsel on establishing a cell to respond to the most complex and 
sensitive Congressional requests for information.

    Question 5.  Please provide any metrics reflecting how long it 
takes to fulfill requests from Congress and the extent to which VA is 
meeting any established goals for timeliness, including a breakout of 
the various types of requests and types of offices (Committee Members, 
non-Committee Members, Committee staff, etc.) and any data or 
information reflecting timeliness trends over time.
    Response. The metrics by which the Department measures requests 
vary based on the type and complexity of the inquiry and are often 
guided based on the turnaround timeline that comes in with the request.
    The office's Metrics and Standard Operating Procedures (SOP) 
indicates the following targets:

    <bullet> Testimony delivered on time 90% of the time.
    <bullet> Questions for the Record: completed 30 days after receipt, 
85% of the time.
    <bullet> Requests for information: Answers to simple questions 
should be provided within 48 hours, all other questions should be 
provided within 10 business days, or the office notified if more time 
is needed for the response.
    <bullet> Congressional Correspondence: work closely with the 
Executive Secretary in responding to Congressional letters. The 
Department does not have a specific time goal for responses.

    Currently, metrics show that the Department has provided testimony 
on time 90% of the time so far this fiscal year. However, we have only 
provided on time responses to questions for the record 33% of the time. 
In this respect, and in others, we have significant room for 
improvement, and if confirmed, I will work to improve performance in 
these areas and to ensure that no Member's request is misplaced or 
delayed for an excessive period of time.

    Question 6.  What steps do you take to proactively monitor 
outstanding requests and to ensure that the answers provided are 
responsive to Members' requests?
    Response. Congressional relations officers work with the VA 
organization providing the information to initially determine the 
status of the response. On other than routine requests for information, 
or previously provided or public facing information, the information is 
reviewed by the congressional relations officer's director and either 
the Deputy Assistant Secretary or myself before it is transmitted to 
Congress to ensure it is responsive to the Member or committee staff's 
request. I have also directed the teams within office to meet regularly 
with VA organizations to review outstanding requests and go over any 
items that are of particular focus. Additionally, if confirmed, I will 
continue to raise directly with senior leaders those issues which 
require urgent attention.

    Question 7.  Please describe any steps you have taken to hold 
accountable employees who are not fulfilling requests in a timely or 
appropriate manner.
    Response. Responding to requests in a timely manner is a joint 
effort that requires quick substantive input from the subject matter 
expert (SME), expedient clearance, and then providing the response to 
the Congressional Relations Officer for conveyance to the requesting 
Committee or Member of Congress.
    Accountability is important, which is why each inquiry and request 
that comes in to the office is assigned an ``owner.'' This individual 
is responsible for following up with the SME organization to express 
the urgency with which the requesting entity needs the information. 
They are responsible for making sure the request is not dropped and 
that it does not slip through the cracks.
    As a leader I believe you need to lay out your expectations for 
your team so they are aware of what you expect from them. At the same 
time, I believe you need to provide feedback, letting the team know 
when they are performing well or need to step up their game. I also 
firmly believe that you praise individuals in public, and offer 
corrective encouragement in private. In those instances when an 
employee has not met expectations, I will council them, with their 
supervisor if they are not a direct report, and offer suggestions on 
how they could have done things differently in order to achieve better 
results.

    [The Committee questionnaire for Presidential nominees 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ------                                

    [Letter from the Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter to the Office of Government Ethics follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Isakson. Colonel, which one of your daughters is 
at Mary Washington?
    My son-in-law graduated from Mary Washington. That is a 
great school.
    Ms. O'Connor. Thank you.
    Chairman Isakson. You are a lot more attractive than he is, 
too. We are glad that you and your entire family are here 
today, Colonel.
    Colonel, I have three or four questions. First and 
foremost, every morning when I wake up regardless of what time 
it is, and oftentimes it is early, I turn on television as I am 
doing my exercises on the floor. I try to listen to what the 
news of the day is. Unfortunately, for me, it seems like far 
too often the Veterans Administration is the first story to hit 
the airwaves, whether it is the incident with cockroaches in 
the VA hospital in Chicago, IL, or the hospital in Denver, CO, 
that has the cost overrun, or incidents of that nature. I do 
not bring this up as a negative, but I bring this up as a fact 
of the matter.
    In your job, if confirmed, will you do everything you can 
to be proactive and make sure this Committee knows in advance 
to the extent possible when something like this is going to hit 
so we are prepared for it?
    Colonel O'Connor. I will, sir. I think it is 
extraordinarily important to be able to share that information 
before you get to see it from the media source and ensure that 
you are aware of what is going on.
    Chairman Isakson. Well, sometimes that is not possible, but 
I think most of the time that it is. Unfortunately, it presents 
a bad image of the VA that is an image that is not really 
meritorious because my experience with the VA has been 
basically very good.
    There are problems. It is the second largest agency in the 
Federal Government, and you are going to have problems from 
time to time. But having the Committee in the loop from the 
beginning is a whole lot better in terms of responses we are 
going to end up making from an educated standpoint versus an 
uneducated standpoint.
    You have said in a pre-hearing statement that your goal is 
to respond to the Committee on simple questions within 48 hours 
and all other questions Congress might ask within 10 business 
days. How well do you think VA actually complies with those 
deadlines?
    Colonel O'Connor. Those are our goals, and I think we do 
average. I think there is absolutely room for improvement. On 
those that are requests for information that are routine, I 
think we are very good at turning that around and providing the 
Committee with the information that they have asked for. I 
think as the issues get more complex we have a more difficult 
time of trying to meet those time goals.
    Folks in my office, the biggest concern I have is ensuring 
that once we get the request for information that we get it to 
the respective organization that is going to provide the 
information and then work to ensure all the way through 
delivery that it is done as quickly as possible.
    Chairman Isakson. If you are confirmed for this position, 
what will be your most important principal requirement and 
responsibility?
    Colonel O'Connor. My most important----
    Chairman Isakson. In your opinion.
    Colonel O'Connor. My most important is open lines of 
communications. I think that is the most important thing in 
creating a foundation of a good, solid relationship--the 
ability to have those lines of communications, pick up the 
phone, ask questions, get an answer, and not have to wait or 
have excessive delays.
    Chairman Isakson. Basically, that is going to be your 
responsibility in this position; is that not correct?
    Colonel O'Connor. It is, sir. It will be.
    Chairman Isakson. Will you work with the Secretary? You 
were complimentary of Secretary McDonald, and I am 
complimentary of the Secretary. I think he is doing a heck of a 
job and trying awfully hard.
    But, some of the problems Secretary McDonald has had have 
been communications of his own. I hope you will work to help 
ensure we temper some of our communication from time to time so 
we have a little better visual image of the Veterans 
Administration from those quotes that come out, and if you will 
work on that I would appreciate it.
    Colonel O'Connor. Yes, sir, I will work on that.
    Chairman Isakson. What do you think is the most important 
thing that the Committee could do to improve our relationship 
with the Veterans Administration?
    Colonel O'Connor. Well, I know, sir, from where we stand 
today, getting the Veterans First Act Passed is extremely 
important to moving forward with the transformation and to 
doing more with veterans. The Secretary supports that Act. We 
have worked with your staff. And that is going to be a game-
changer for veterans.
    Chairman Isakson. That was a great answer because that was 
what I was hoping you were going to say.
    Let me just say this Committee voted unanimously to pass 
out the Veterans First Act. Every member, Democrat and 
Republican alike, had a lot to do with that thing.
    I had hoped to get it to the floor under a unanimous 
consent (UC), about a month ago, and then the wheels kind of 
came off because of other competition. One way or another, we 
are getting ready. In fact, the Ranking Member and I are having 
a meeting later on today which hopefully will help facilitate 
us moving toward being able to do that before the break in 
July.
    But, after the Attorney General's declaration that she was 
not going to act on behalf of the Veterans Administration to 
enforce the Veterans Choice Act. The Secretary, much to my 
chagrin, who yesterday, in an interview with the press, said he 
was going to take up and follow her lead and not depend on the 
Veterans Choice Act either, unless this Committee and this 
Senate and the Congress of the United States passed the 
Veterans First Act, with the changes we have in accountability 
and especially for senior executive leadership of the VA, we 
are going to have a VA that has no accountability whatsoever. 
Would you agree with that?
    Colonel O'Connor. Sir, I think when the Secretary evaluated 
the Attorney General's decision he made the decision 
internally. He firmly believes in accountability and holding 
these executives accountable. He just does not want to see any 
action he would take under the expedited removal to be reversed 
because he is fearful that the unintended consequences of 
reversing it would be worse than holding somebody accountable 
under the preexisting regulations.
    Chairman Isakson. I respect that and do not take issue with 
that except to say that because of the decision of the Attorney 
General and because of Secretary McDonald's decision, if we do 
not act quickly and with due diligence to get the Veterans 
First Act passed, we are going to have a difficult time 
enforcing accountability in the Veterans Administration among 
senior executive management. Would you agree with that?
    Colonel O'Connor. I think the culture in the Department is 
changing, sir. I think that the Secretary, where he is leading 
the Department is effecting change. I believe that when he gets 
up and addresses all of his senior executives and talks about 
accountability, sustainability, and accountability, it is 
resonating. The change is happening.
    I know what is expected of me, and I know what would happen 
if I did not fulfill those expectations.
    Chairman Isakson. Well, for the record--and this is not a 
question; it is just my statement--I appreciate your answer, 
but if we do not have an accountability mechanism that clearly 
gives the Secretary the line of authority and the line of 
appeal in terms of senior management, we are going to have a 
situation that is less than satisfactory as far as I am 
concerned. It will send the message to the public we are doing 
everything we can to overcome what have been some of the 
shortcomings of the VA in the past few months ahead.
    With that said, I will turn to the Ranking Member.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Let me ask you first about the West Haven VA facility. I am 
told that the construction there is underway on an expedited 
basis. Is there a way to accelerate it?
    Colonel O'Connor. Right before coming over, I checked on 
that, sir, and folks there are saying that they are going to 
award the design phase within the next day or so. I do not know 
whether it is approximately a 60-day period there.
    But, you know, when you raised that issue with the 
Secretary at one of the Four Corners Breakfasts, he made sure 
and directed me to get in touch with Veterans Health 
Administration. He ensured the facility understood the concerns 
you had in regards to that crosswalk and the injuries that were 
sustained by the veteran crossing, and to move forward on that 
as quickly as possible. And I believe we are.
    Senator Blumenthal. I appreciate that attention. It is well 
deserved. There have been a number of injuries over the past 
years, one of them fatal, so I hope that we can continue to 
discuss how to accelerate that timetable that exists now.
    On the issue of accountability, can you tell me what the 
Attorney General said, when she said it, and what the Secretary 
said and when?
    Colonel O'Connor. I apologize, sir. I believe the Attorney 
General's response was May 31. I am unable to explain her 
response in legal terms. I think the concern was, though, that 
she felt it was not defensible and therefore was not going to 
defend the appeal. So that was the information that the 
Secretary based his decision on and how he would proceed to 
holding senior executives accountable from that point on.
    Senator Blumenthal. Did the Secretary consult his own legal 
counsel?
    Colonel O'Connor. I believe so; yes, sir.
    Senator Blumenthal. And did the Attorney General of the 
United States instruct the Secretary as to what he should say 
or do?
    Colonel O'Connor. I am not familiar with that, sir.
    Senator Blumenthal. Chairman Isakson asked you about the 
Veterans First Bill. If, in fact, there are constitutional 
issues and defects in the current accountability procedures or 
provisions, adopting the Veterans First Bill is not only 
essential but also important to take account of those issues, 
correct?
    Colonel O'Connor. Yes. I think one of the discussions the 
Secretary had with both gentlemen was the concern obviously 
that the accountability also gave flexibility in hiring for 
medical center directors, and VISN directors, and the 
importance of being able to attract the right talent to be able 
to fill those important positions. I know the Secretary feels 
strongly about it and supports the provisions.
    Senator Blumenthal. Is the Secretary satisfied that the 
issues that caused him to say he would not enforce the present 
law have been satisfied in the Veterans First Act?
    Colonel O'Connor. I am not aware of any objections at this 
time, sir.
    Senator Blumenthal. Has he consulted with the Attorney 
General of the United States?
    Colonel O'Connor. I do not know, sir.
    Senator Blumenthal. I suggest that he should so that we do 
not encounter the same situation again. There is no reason, in 
my view, that any constitutional issue should be raised. Rather 
than waiting for her opinion until after we adopt the measure, 
I would like to be assured that her opinion is that it is, in 
fact, fully and completely constitutional as I believe it is.
    Colonel O'Connor. Yes, sir, I will bring that back.
    Senator Blumenthal. On the issue of appeals, as you know 
better than we do, the reform of the appeals process is 
certainly a high priority goal of the Veterans First 
legislation. We have supported it, but we are still awaiting a 
score as I understand it. Is that correct?
    Colonel O'Connor. I believe CBO still has not issued a 
formal score; although, informally, they have addressed the 
House Veterans' Affairs Committee that it is a very low cost. 
And I know later this week Deputy Secretary Gibson is 
testifying on the counterpart legislation.
    Senator Blumenthal. My understanding is, in fact, that a 
score has been given to the House committee but not yet to us. 
Is that correct?
    Colonel O'Connor. I am aware that the House knows that it 
is a very low score. We have not seen any formal documentation.
    Senator Blumenthal. Well, let me suggest as a first order 
of business, even before you are confirmed, that perhaps, I say 
respectfully, you track down whatever exists on paper or 
whatever number has been informally provided to anyone because 
the Secretary certainly has made very clear his desire to see 
the appeals process reformed. We cannot do it without a score.
    The Chairman and I have practically berated the appropriate 
officials to provide a score. And so I think it behooves 
everyone here to have whatever information is available. So I 
would be grateful if you could make that a first order of 
business.
    Colonel O'Connor. Will do, sir.
    Senator Bluementhal. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. It is so nice to have a good lawyer as 
your Ranking Member.
    Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    Colonel O'Connor, I appreciated the opportunity to visit 
with you earlier in our office, and let me assure you that we 
want to work with you to get the job done for the veterans, and 
I appreciate your sense of how important your job is.
    One of the issues that I think you are going to be 
challenged with is whether or not you have the capabilities 
within the office, as it sits today, to get the job done. I 
want to share with you where we are coming from and then ask 
your thoughts, and I want you to give us your current position.
    I understand that the job of responding to over 4,000 
requests a year is a daunting task, and I appreciate the 
efforts of you and your office to work with Congress and the 
American people.
    Can you tell me the specific steps your office takes to 
follow up on outstanding requests once they are logged and 
tasked out in the system?
    For example, my staff submitted one request for information 
to your office on February 23rd. That still has not been 
answered other than to say upon receipt that it had been 
forwarded to the Health Team.
    Another request from earlier this year took 39 days to get 
a response, and that was only after we specifically followed up 
to make sure your office knew we had not forgotten about it.
    I understand that a majority of requests require you to 
reach out to other directorates in the VA and coordination 
between the offices can be difficult, but I just want to get an 
idea for the follow-up process for those requests once you have 
tasked them out.
    Colonel O'Connor. Once we task them out, they are assigned 
to a team within our organization and to a congressional 
relations officer who is a member of that team. They are 
responsible for tracking it to completion. We send it to the 
respective organization that is going to compile the answer.
    The key is to continue the open dialog with that 
organization on the status of that and to provide feedback from 
the office from which the request came so that there will not 
be any mistake that it has been lost in a black hole somewhere. 
The goal is to continue that dialog and ensure that if there 
are problems associated with the----
    Senator Rounds. So let me just--so the goal is 10 days, 
approximately. So, OK, at the end of 10 days, is there a 
follow-up within the system? Is there an automated system? Is 
there a process that reminds, a tickler file that it is 
established within the office, that brings it back up in front 
of an individual responsible for getting back to a 
congressional office?
    Colonel O'Connor. Each and every week, sir, we compile our 
dashboard that lists the complete array or complete numbers of 
requests for information but from the respective committees and 
then from other Members of Congress. And we talk and go through 
that, identifying any issues that are causing problems and 
where if it needs more senior personnel involvement.
    We rely on our individuals instead of creating further 
layers to manage their account. Either requests for 
information, questions for the record, hearings, and to manage 
that effectively, and to identify when they have problems with 
that.
    Senator Rounds. So is the expectation then that the office 
making the request needs to follow up at the end of 10 days in 
order to get a response?
    Colonel O'Connor. No. The expectation is that our office is 
always responsible and needs to be actively pursuing and be 
persistent.
    Senator Rounds. Would it be appropriate to have perhaps 
somewhere within the tickler system where if we do not have it 
within 10 days there is at least a follow-up to assure us that 
we have not been lost in the system for an extended period of 
time?
    Colonel O'Connor. Absolutely. And that is the part when the 
Chairman asked me earlier about having--you know, what is the 
most important thing on lines of communications. And that is an 
instance where we have better work to do in that regards when 
there are delays, that we do not just leave somebody sitting 
and wondering, and rather, they at least know we are working 
it, it has not been lost, and no one has been forgotten.
    Senator Rounds. Of the more than 4,000 congressional 
responses that you have provided to Congress in the last year, 
would you classify a majority of those as unique, or do you 
find your office consistently responding to the same questions?
    In addition to the briefings you conduct and set up by 
request, is there more the VA could be doing to proactively 
brief and engage with members and their staffs that might, in 
turn, cut down on the heavy request workload?
    With your background in the Marine Corps Legislative 
Affairs, do you ever compare DOD's model to the VA's approach?
    Colonel O'Connor. I do, and I have tried to implement a lot 
of the things I learned when I worked at Marine Corps Leg 
Affairs. One of the things we have tried to do is increase the 
number of briefings and especially increase the number where we 
get the subject matter expert together with the individuals 
asking the question. It eliminates back and forth.
    Senator Rounds. Is there a high redundancy on the questions 
that are being asked?
    Colonel O'Connor. Not really.
    Senator Rounds. Really?
    Colonel O'Connor. Not really. Each and every question we 
get is unique to some degree. I wish I could say there would be 
a cookie-cutter response, but there is not. The members are 
asking about their respective States, their districts, and 
therefore, we have to provide a unique set of information.
    But, in regards to what you said earlier, it is our goal to 
be more proactive, to tell you about what we are doing and not 
have you ask for it. What we try to do is increase the 
interaction with senior leaders. Specifically, Under Secretary 
for Health Shulkin and Assistant Secretary for Information 
Technology Council. We want them coming over, talking with and 
committing more than previously to try to keep that flow of 
information going.
    Senator Rounds. Very good. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Rounds.
    Senator Manchin.

     HON. JOE MANCHIN III, U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you.
    Colonel O'Connor, thank you for your service. I know your 
family is proud of your service; they should be. And I am sure 
you are proud of your family. I can tell your daughter she will 
be so relieved when she takes that last class and everything is 
over, right?
    Colonel O'Connor. Yes.
    Senator Manchin. As a father, I understand completely, and 
I know she will do it.
    Let me just say this: your offices, we work with them. It 
is good and everything.
    I am going to follow up on Senator Rounds. In our offices 
our two highest priorities call-wise are VA and social 
security. I think it is in probably all of us, 100 of us. With 
that, people want--they want an answer.
    The only thing I can do is I hold all my caseworkers 
accountable for their cases. So, if they get a case, they get 
an answer to me every week on that case--how many they have 
pending, how many news ones, how many they close--so we are on 
top of it continuously.
    I think what needs to be considered here is that--I can 
just tell you what our staff feels like, and the caseworkers. 
When we call you, you all have been very gracious. You hand it 
off, and then it basically gets in cyberspace or something.
    We are hoping that maybe we will--you know. Sometimes they 
really have to dog it. You have always been good on intervening 
and getting back; I will say that. But if we do not dog it, it 
does not get done.
    Does that make sense?
    Colonel O'Connor. No, it does make sense.
    Senator Manchin. I am not being critical. I am just telling 
you the facts of life because I know if that is my highest 
caseload I know it is Mike's, I know it is Bill's, and I know 
it is Johnny's.
    We are all getting--I mean, I love it. We have wonderful 
States and have a lot of veterans, and we are trying to give 
them the best service. So, we get a little bit antsy about 
this.
    Colonel O'Connor. I understand. Our team that has the 
office here in Russell to provide casework support, they handle 
upwards of 25 to 27,000 particular inquiries. Our goal is----
    Senator Manchin. That is what period of time? The 25,000 is 
when?
    Colonel O'Connor. On an average yearly basis.
    Senator Manchin. Yes.
    Colonel O'Connor. Where we try, both our office here in 
Russell and in Rayburn.
    Senator Manchin. Sure.
    Colonel O'Connor. Now, we understand that constituent 
casework is----
    Senator Manchin. Let me tell you one thing, if some of us 
could bring our heads of our caseworkers in our States and 
bring them to sit with you.
    Colonel O'Connor. We would love to have----
    Senator Manchin. If you have a roundtable sometime, Mr. 
Chairman, if we could bring him in, it would be wonderful. I 
think it would help us understand the mammoth problem that you 
all have and the enormity of your work, but also understand 
theirs, too.
    We ought to do that, Mr. Chairman; if I could request that. 
Put a working group together with you all?
    Chairman Isakson. That is an excellent suggestion. I would 
think we have it in the budget to get him up here, and I am 
sure the VA would like more than anything to meet with them.
    Senator Manchin. Well, Johnny, on that--just on this 
Committee here, if we could all bring our caseworkers.
    Colonel O'Connor. We would love to support that, sir.
    Senator Manchin. OK. Now, to the other question I have. You 
have been working in congressional affairs in VA for the past 6 
years and done a great job. In the past 6 years you have served 
under two secretaries; you have endured crises, like the 
Phoenix wait time scandal, the opiate scandal in Tomah, WI; 
seen the birth and the evolution of the Choice Program, and an 
awful lot more in between.
    So, my question would be: What is the most important lesson 
you have learned in the past 6 years, and what can we do 
different?
    Colonel O'Connor. Well, the most important lesson I think I 
have learned and seen is putting veterans at the center. We 
oftentimes, as a Department, have not put the veteran first. We 
have maybe put the Department first, put our own employees 
first.
    Senator Manchin. I gotcha.
    Colonel O'Connor. And we have never--now under----
    Senator Manchin. That mission has changed under Bob?
    Colonel O'Connor. The mission stayed the same. How we are 
doing it is changing.
    Senator Manchin. OK. I gotcha.
    Colonel O'Connor. That is about putting the veteran first.
    Senator Manchin. There was one other. When I was Governor, 
some of the best work that was done in my organization was the 
Department of Veterans Assistance; we had a VA.
    As the Assistant Secretary of Congressional and Legislative 
Affairs, one of your responsibilities is working with and 
maintaining communication with State governments. How do you 
think the VA at the Federal level can work with a government?
    I mean, our offices, we are U.S. Senate, and we are 
Congress and all that. But I know the Governor's office and the 
State offices of VA. Do you have liaisons for that, too?
    Colonel O'Connor. Yes. That is one of the--when we did a 
reorganization within the office, the Office of 
Intergovernmental Affairs moved to what was the Office of 
Congressional and Legislative Affairs and formed the Office of 
Government Relations. Here now under one umbrella office, we 
have responsibility for interfacing with all levels of 
government--state, tribal governments, and Federal, as well as 
county and city. So, we have the capability to ensure that the 
information that we are providing is getting out to the entire 
spectrum of important stakeholders.
    Senator Manchin. Well, Colonel, I look forward to voting 
for you and supporting you and helping you in any way we can 
our mission.
    And, if I can make the formal request to the Chairman on 
bringing the caseworkers up to have a roundtable, that would be 
I think immensely helpful to both of us. Our staffs would 
understand it, your staffs would understand it, and together we 
can make a better product. OK?
    Colonel O'Connor. Yes, sir. I look forward to that.
    Senator Manchin. Thank you, sir. Appreciate it.
    Colonel O'Connor. Thank you.
    Chairman Isakson. Not only do I think it is a good idea, 
but I am going to appoint you and Senator Rounds to co-chair 
that event. And let's try and do it before the 15th of July 
because by the 15th of July we are going to be scattered for 7 
weeks.
    Senator Manchin. We will get one--we will get each one of 
our members, you and John and all of us, our caseworkers. We 
will bring them up here.
    Chairman Isakson. We will make the Committee room available 
which should be an appropriate room if you will work to get the 
appropriate staff from the VA here present.
    Colonel O'Connor. We will.
    Chairman Isakson. I will bring the donuts.
    Senator Manchin. Colonel, we will want to do that and we 
will set it up.
    Colonel O'Connor. Yes, please.
    Chairman Isakson. Please tell Senator Rounds that I 
nominated him. You all be sure and let him know.
    Senator Cassidy.
    Senator Cassidy. Thank you.
    Colonel O'Connor. Thank you.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Welcome, sir, and thank you for your life 
of service. I think you kind of addressed the shortcomings and 
the progress that everybody hopes to be made, and I will just 
point out when it comes to questions for the record we have 
questions for the record still pending from October 2015.
    To state what everybody else has, there have been some 
issues as regards timeliness of response. Let me suggest also 
something that I had mentioned when I first got on this 
Committee, which is probably a little bit different than what 
others would have.
    You have the data--at least I am told you do--that tells us 
for each hospital and each VA clinic the number of outpatient 
visits per provider, the number of no-shows, those people who 
have visits but do not show up, the number of complaints, and 
the number of complaints per employee. You have for those who 
missed their appointment when is their next scheduled 
appointment.
    As a physician, I run into providers across the Nation who 
will tell me their story. One told me the story of her mental 
health clinic where if the patient was a half an hour late they 
were rescheduled for weeks later. A mental health clinic. 
People having a hard time keeping it together.
    You know that. I would like to know that. I have asked in 
the past, because the only way we can do meaningful oversight 
is if we have a facility-specific profile of how well it is 
run.
    You mentioned how they are trying to change the mission to 
where the patient is first and everything revolves around the 
patient. Unless we know the numbers, we do not know if that is 
being executed. I have no doubt in some hospitals it is high-
performing, particularly for some departments, and in others 
not so much.
    Frankly, it may be a doc that told me, listen, my nurse 
practitioner gave me 6 months that she was leaving, but I could 
not advertise until after she left, and then it took me 6 
months to fill. So, a year after I knew she was leaving, we 
finally filled the position, and that does not include.
    So, if all of a sudden we see a slowdown in number of 
patients seen per provider or per provider team; well, that 
would invite that question. I only know it because a doc 
stopped me at a meeting and asked, let me tell you my VA story.
    So, I guess my plea, which for all of us is for greater 
timeliness in response, both to our requests as well as that of 
our workers.
    Now I have an additional query: If you can give Sen. 
Isakson data on every facility in Georgia, me, every facility 
in Louisiana, et cetera, and their hospital, clinic, and 
department-specific statistics, I can compare the mental health 
facility in New Orleans versus the one in Houston or Atlanta. 
Then, I will feel like I am learning something.
    It will be less of a black box where I am not quite sure I 
know, versus, we have looked at the numbers, and we are seeing 
that you are doing better, and over time it is even getting 
better.
    So, it is not a question there. It is just kind of a 
request that I made to one of your colleagues, and I will just 
make it again.
    But, again, thank you for your service and thank you for 
taking on this job.
    Colonel O'Connor. Thank you, sir.
    Senator Cassidy. I yield back.
    Chairman Isakson. Thank you, Senator Cassidy.
    Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you.
    There has been a lot of talk--this has just come out--about 
the fast-track firings. Can you tell me--I know we have 
discussed it already in the Committee. Can you tell me your 
position on that?
    Colonel O'Connor. Insofar as, sir, what the Secretary--when 
he found out about the Attorney General's decision to not 
defend the position of the expedited removal, he felt that he 
did not want to pursue using that authority because of the 
unintended consequences of getting it overturned at a later 
date, and therefore, determined the best way to go forward in 
holding executives accountable within the Department was to use 
the preexisting accountability authorities that he had. He does 
not want to see us, see the Department, removing anybody only 
to have the courts later reinstate them.
    Senator Boozman. Yes, the problem is that the 
responsibility of the Committee is to hold him and you 
responsible also.
    Again, I just do not understand the reasoning. We passed a 
law; we both agree with that. Now, the Secretary has decided 
that because he is concerned about lots of ``what-ifs'' that he 
is not going to follow the law. Is that correct?
    Colonel O'Connor. I believe, sir, that he is----
    Senator Boozman. But that is the essence of it, isn't it?
    Colonel O'Connor. I think he is reviewing what the Attorney 
General determined and using the Department of Justice 
decision, if you will----
    Senator Boozman. So, his attitude is that the Attorney 
General trumps Congress passing a law?
    Colonel O'Connor. I think his concern, sir, again is using 
that authority only to have it, at some later date, reversed.
    Senator Boozman. I think that is fine, but to me, the chain 
of command or the chain of protocol is he talks to us about 
that, and then, if his concern is valid, then we change the 
law. But, he does not get to decide what laws he is going to 
enforce.
    Are there any other things that he is concerned about which 
he might not follow because he is concerned about unintended 
consequences down the road that we do not know about?
    Colonel O'Connor. No, sir.
    Senator Boozman. OK. Do you agree with his decision?
    Colonel O'Connor. Yes, sir, I do. I think the unintended 
consequences of reversing--if you are removing somebody from 
their position only at a later date to have them come back, I 
think----
    Senator Boozman. Do you agree with the--I understand that, 
and like you say, that is an argument to make. Do you agree 
that he has the authority to simply not follow a law that 
Congress has passed because his concern for unintended 
consequences?
    Colonel O'Connor. I think, sir, in--yes, I believe he does 
given what the Department of Justice determined.
    Senator Boozman. OK.
    Colonel O'Connor. Because, sir, he is still holding people 
accountable. It is just a question of which authority he is 
doing it under. It is not----
    Senator Boozman. Well, he was quoted as saying the old 
process is fine. So, is it fine, or is he doing something 
different? I mean, that is his quote.
    Colonel O'Connor. The old process still enables him to hold 
people accountable, sir.
    Senator Boozman. So, I guess the question is: You have been 
around a couple years. Why haven't we been doing that, with the 
old process?
    I think that there is real concern that we have not been 
doing a good job of that. I think that concern has been, you 
know, again from leadership within the VA also. So, if the old 
process is fine, why haven't we been using that process to do 
what we need to do?
    Colonel O'Connor. I firmly believe, sir, that the Secretary 
has outlined his view of accountability to all of his senior 
executives. We know what is expected of us within the senior 
executive corps and what we need to deliver.
    Senator Boozman. So, can you give me some examples of what 
you are doing to try to hold people accountable that is 
different?
    Colonel O'Connor. Well, I can give examples from within my 
own office in that I think the most important thing, insofar as 
leadership I learned in the Marine Corps, is to ensure that all 
your employees understand what is expected of them and how 
their jobs contribute to the overall accomplishment of the 
mission.
    Along that line, I think as a leader you owe your employees 
continuous feedback. It is just not done during the midyear 
performance review or performance appraisal. And, if there are 
problems, you address them with the employee and their 
supervisor to ensure that they understand what they need to do 
to meet the levels of expectation.
    Senator Boozman. With a very distinguished career in the 
Marine Corps, while doing that, did you occasionally have to 
fire some people?
    Colonel O'Connor. We had to do--we had to take actions 
against people.
    Senator Boozman. So, you occasionally had to fire some 
people.
    Colonel O'Connor. We did not have--I am kind of getting 
uncomfortable talking about specific personnel in a small 
office, but we had to make----
    Senator Boozman. No, I am talking about in your Marine 
Corps.
    Colonel O'Connor. Oh, in the Marine Corps, yes.
    Senator Boozman. You needed to do that to make the place--
you did what you said, you know, regarding your Marine Corps 
leadership, and I agree with that totally, and you--you know, 
nobody has exhibited that more than you have in the sense of 
your career.
    I guess what we are saying, or what I am saying, is that we 
need to do all those things. At the end of the day, this is 
like the sixth largest--if this were a corporation, this is the 
sixth largest corporation in the country. At the end of the 
day, there are people that do not work out, and they need to be 
gotten rid of in a fairly easy way. So, again, that is the 
problem I have.
    I do want to thank you so much for your service and truly 
respect all that you stand for.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Boozman, I want to thank you for 
your questions.
    Before I get to another Marine, Senator Sullivan, I want to 
make a comment.
    Colonel, you are a good Marine, and I respect the answers 
that you gave to the questions that were just asked because you 
were supporting your boss, and that is what you do in the 
military and in service. But as you can see, this Committee 
is--from the remarks that I made earlier, the Ranking Member 
has made, and that have been made by other members, this 
situation in terms of accountability has got to be dealt with.
    We are looking for communication between the Secretary and 
the Department and ourselves to make sure we get this Veterans 
First Bill implemented, we have accountability within the 
Veterans Administration, and nothing is going to stop us as a 
committee from pursuing that until it happens because until we 
do the VA is going to be in jeopardy.
    I will just make that comment.
    Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    Colonel O'Connor, I appreciate the opportunity to meet with 
you yesterday and thought we had a good discussion. I want to 
also mention that how much I, and I know others, respect your 
service in the Marine Corps and what you did there for three 
decades.
    I think it is clear what you just said. You know, the 
Marine Corps would not be putting up with not even a minuscule 
amount of what goes on at the VA. People would be fired like 
that, and you know that as well as I do. So there is a 
frustration level here, and I think you are seeing it on the 
Committee.
    But, you know, as you and I talked about, I mean, I was 
home in Alaska just last weekend and had an opportunity to talk 
to a Vietnam corpsman. He used to work at the VA; served his 
country with the Marines, patched up and probably saved a lot 
of Marines' lives. This is the first thing he talked to me 
about--this lack of accountability. Again, he was a VA 
employee.
    It just goes well beyond the Committee here. I mean, these 
are constituents of mine raising the lack of accountability 
issue.
    I think it goes to the ultimate issue that we all know 
needs to happen, which is rebuilding the trust between the VA 
and our veterans.
    I really think Senator Boozman's line of questioning is 
actually a really, really important line of questioning because 
what the Secretary is doing in my view is starting to lay out a 
dangerous precedent. Then, to kind of have the Congress say, 
``Here is what we are going to do,'' and have him say without 
even having the law challenged--it is one thing to take it all 
the way and have someone challenge it, go to court, and have 
the court overturn it. But, to just say, ``Ah, the Attorney 
General thinks it is not going to hold water, so we are never 
going to use this law,'' that is a dangerous precedent without 
any limiting principle. Any executive can do that on anything.
    This administration has been very, very roughshod with the 
rule of law in my view, and this is just another example. I 
think it is a very, very dangerous precedent.
    So, count me as somebody who thinks that is not the 
discretion that the Secretary should have and it is certainly 
not the discretion that the Attorney General should be 
providing the VA. You need to take the law to its max extent, 
use it, and if it is overturned in a court then we should have 
the discussion. It is very frustrating.
    Let me give you a little bit more context of why it is 
frustrating from the position you are in. If you are going to 
do something that major when you know--meaning you as the VA--
know that this Committee has been so focused on this 
accountability issue, then you are just going to do it, and the 
Chairman and the Ranking Member read about it, like I did, in 
``Stars and Stripes'' and ``Military Times,'' that is a failure 
on the part of the congressional liaison offices. We should 
not--if there is a major change in policy, we should not be 
reading about it in the newspaper.
    Do you have any comment on that?
    Colonel O'Connor. I think we could have done it differently 
and done it better.
    Senator Sullivan. What would you have done differently?
    Colonel O'Connor. Given the reaction, we would have 
hopefully addressed the issue to the Committee before it was 
ever presented to the public in any way, shape, or form.
    Senator Sullivan. I think that is absolutely what you 
should have done. ``Given the reaction'' is not the only reason 
you should do that.
    If you are trying to change policy that this Committee and 
the Congress of the United States has passed, and you try to 
unilaterally change it, and you are going to do that, I think 
you need to come to the Chairman and the Ranking Member and the 
rest of this Committee and thoroughly, thoroughly brief us on 
why you are going to do that before it gets announced in the 
press and we are all blindsided by it and our constituents are 
reading yet another story where it seems like the VA does not 
take accountability seriously.
    Can you commit to doing that if you are confirmed?
    Colonel O'Connor. I do confirm we answered a request for 
information on this. We should have done it differently. I 
think hindsight being 20/20, if we went back, we would not do 
it the same way. And we are very much aware of the frustration 
that we created by doing it in that manner.
    Senator Sullivan. Mr. Chairman, may I have time for one 
more question?
    Chairman Isakson. Certainly.
    Senator Sullivan. Another area where I think there has been 
frustration, and I think it is among all members, is the 
responsiveness of the VA where a lot of offices--I know mine 
included. We make requests, and then we wait, and we wait, and 
then we are always trying to proactively say, ``Hey, any luck 
on this request?'' ``No.'' ``Any luck on this request?'' 
``No.''
    It seems like we are the ones always reaching out, and I 
think that that can be reversed. If you know that there is an 
interest of the Committee Members on requests that we have had, 
you should be proactively reaching out to us and even if you do 
not have the information. ``Hey, we know this is important to 
you, Mr. Chairman, but we do not have it yet, but we are on 
it.'' Right.
    I think that would breed a lot more trust just between the 
Committee and the VA because just from this Committee's 
records, in the last couple months, it has taken 3 months for 
the VA to answer a routine question, 49 days for the VA to tell 
the Committee that they do not have a policy requiring doctors 
performing compensation exams and provide copies of their 
resumes to the veterans being examined if the veteran requests 
it.
    I have a whole list. I am going to submit them for the 
record, where the Committee was asking questions and it was 
taking any time from 3 to 6 months for the VA to get back. And 
these are not big questions; they are pretty routine questions.
    So, could you commit to, and maybe you can comment on, the 
issue of responsiveness to this Committee? Because, ultimately, 
it is not only our questions of policy, it is questions of 
cases that involve America's veterans.
    At the end of the day, we need to get back to making sure 
our veterans have the trust and confidence in the VA, and 
taking forever to answer questions does not build that trust 
and confidence.
    Colonel O'Connor. Yes, sir, I will commit to doing things 
differently. As I mentioned earlier, one of the key things from 
my experience working Marine Corps Leg Affairs was the open 
lines of communications and the way we would interface with 
congressional offices.
    Much like you said, there were often times where we would 
just say, ``We have a problem. We will get back to you.'' In 
fact, because of our relationships that was good enough, and 
there were no negative comments, and we were able to----
    Senator Sullivan. But that is not happening right now with 
the VA.
    Colonel O'Connor. That is where we want to get to, and that 
is why I still want to do this job. Because I believe getting 
there is extraordinarily important to build better 
relationships between Congress and VA.
    On talking to your staff, we are getting there. The people 
we are hiring, the people who work in the office now 
understand, and they are doing a good job of having that 
communication. I have empowered them to have those open lines 
of communications and not to--you do not have to run things all 
the way through chains of command. You have got to be able to 
interface.
    The key thing that I mentioned and I will reiterate, when 
we do run into problems, we have to alert people we are having 
problems, there are delays, and to give some level--some 
expectation of when somebody can expect something and not just 
``We are working on it.'' There has got to be something better 
and more concrete than that.
    Senator Sullivan. Well, I think if you do that those would 
be very important reforms that we would all welcome. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. We will do a second round in case anyone 
wants to ask some more questions, but I want to ask a follow-up 
on what has been said by every Member of the Committee. Do the 
requests that come to the Department from Members of the 
Committee go to your office first and then you assign them to 
the appropriate person to respond?
    Colonel O'Connor. The majority of them do, yes, sir.
    Chairman Isakson. OK. Well, then you can be a catalyst to 
solve the biggest problem that was described so well by Dan 
Sullivan. The minute you get that and you assign it, you should 
have a rule that if it cannot be responded to in 48 hours, 
which is your desire to do so on simple questions, that a call 
goes from whomever you assign it to, to the office of the 
Member of the Senate, that it is going to take longer than 48 
hours and to tell them when they can expect it.
    If it is a complicated question or one that you normally 
would guarantee a 10-day delivery, which you all do not do, 
require that once you assign it, they pick up the phone and 
call Senator Blumenthal's office or my office or Senator 
Sullivan's, and say, ``I cannot do it in 10 days, but I will 
try to get it by X, and I will call you back.''
    There is an absence of responsive communication, in my 
judgment, from the VA to members or to staff members on the 
staff of Members. That leaves this issue bigger than it really 
is, but it is a big issue. I think you can tell from listening 
to everybody around here that a lot of us end up getting caught 
not knowing the answer to questions we ought to already know 
because you all did not get the response to us in a timely 
fashion.
    So, number 1, if you are confirmed, that is the first 
thing. If I were you, I would institute some system where they 
respond back to you, where you know if members are not getting 
a response.
    Second, it is obvious from everybody--we did not have a 
meeting before this meeting to say here is what we are going to 
ask you. We did not discuss this amongst ourselves, any of us. 
Yet, every Member that has come in and asked questions, without 
exception, has addressed this issue of accountability, the 
issue of taking the position of Loretta Lynch and the issue 
that the Secretary has taken.
    We are not going to stop until we get a situation set where 
we have an accountability mechanism in the VA that works, holds 
the VA accountable, and makes it happen. I think the Veterans 
First Bill is the bill that does that.
    Whatever the case, when you go back and report to 
headquarters, what did they talk about or what did they ask you 
about, we talked about two things:

          One, responding to Member requests in a timely 
        fashion and creating a mechanism to know how that is 
        happening at the Department; and
          Two, and most importantly, to deal with this issue of 
        accountability and the decision the Secretary has made 
        to not follow up, as Loretta Lynch did as well, because 
        for every one of us in here that is a nonstarter. It is 
        something that has got to be fixed, and the sooner the 
        better, when passing Veterans First.

    With that said, I will turn to the Ranking Member if he has 
a question or a comment.
    Senator Blumenthal. Thank you.
    First, just a minor correction to a point made by my 
colleague and friend, Senator Sullivan. Actually, the law has 
been challenged in court in a case called Helman v. Veterans 
Affairs Administration.
    In the brief submitted by the Department of Justice, as I 
read it, the Department declines to defend the decision of the 
administrative judge below. It is challenged on the basis that 
it is an unconstitutional procedure that has been set forth 
under the statute because the final authority is vested in that 
administrative judge, which seems a fairly narrow decision by 
the Department of Justice, but still highly consequential for 
all the reasons that we have stated here because the Department 
of Justice declining to defend a statute of the United States 
is a decision of the highest and most profound consequence.
    You have heard the consensus here that there is a lot of 
doubt on this Committee about the correctness of that decision. 
It may be well justified, but we have no explanation for it 
from either the Attorney General of the United States or the 
Secretary of Veterans Affairs.
    I understand that Secretary McDonald is not a lawyer. He is 
a distinguished graduate of West Point. And I think his 
training is in the business area, and certainly he has a lot of 
accomplishment in that area.
    You are not a lawyer unless I am mistaken. So, we are not 
going to hold you to try to explain that decision.
    Where I am going is to say I would like to ask, with the 
Chairman's permission, for a formal explanation from the 
Attorney General of the United States through the Secretary of 
Veterans Affairs of whatever decision has been made and what 
the reasons for it are.
    The Attorney General of the United States, by the way, has 
a responsibility to obey the Constitution. So, if there is an 
unconstitutional statute, certainly the issue of enforceability 
is raised.
    As Attorney General I sometimes faced the decision whether 
to enforce a statute that I had questions about in terms of 
constitutionality, and generally for me, the standard was, in a 
sense, unconstitutionality beyond a reasonable doubt in effect. 
So, I cannot even remember a time when I did not enforce a 
statute, but there may well have been.
    My point is that I think the Congress, and particularly 
this Committee, deserves an explanation, as Senator Sullivan 
said very correctly, and the Chairman, not just to read about 
it in the ``Military Times'' or ``Stars and Stripes,'' but an 
explanation in writing formally as to what the reasons are for 
this decision to decline to defend a decision or a statute.
    That may all be a long-winded way of saying--and not 
blaming you because this was a decision above your pay grade, 
so to speak, but--simply that if you could make sure that this 
Committee is provided with such an opinion.
    Colonel O'Connor. I will.
    Senator Blumenthal. Thank you.
    Chairman Isakson. Senator Sullivan or Senator Boozman have 
you any questions?
    Senator Boozman. The only comment I would make is I think 
that is an excellent suggestion. Certainly, you know, if we 
need to--if you need any help with the rest of the Committee, I 
think, you know, that would be very appropriate. Yet, I really 
would like to know officially what this is all about.
    Also, I thought the summary that Senator Isakson talked 
about, the concerns that we have regarding that issue, and the 
Member requests that Senator Sullivan talked about. Then, 
problems that they have when you are dealing with facilities. 
They are trying to get information and struggling in that 
regard, too.
    I would really like to see a more proactive approach and a 
little bit less defensive actions in those regards.
    Thank you, Mr. Chairman, and thank you to the Ranking 
Member for having a very, very good hearing.
    Chairman Isakson. Without objection, the statistics that 
were referred to by Senator Sullivan will be submitted for the 
record and will appear in the record in terms of the 
responsiveness of the Department.
    Senator Sullivan. Thank you, Mr. Chairman.
    [The information referred to follows:]
                 Issues Submitted by Hon. Dan Sullivan
    VA has not yet responded to post-hearing questions from the Budget 
hearing in February 2016 or a legislative hearing in March 2016.
        - 3 months to answer a routine question about how disability 
        ratings are calculated. (March 10, 2016, request; June 15, 
        2016, answer)
        - 49 days to tell the Committee that VA does not have a policy 
        requiring doctors performing compensation and pension 
        examinations to provide copies of their resumes to veterans 
        being examined if the veteran requests it. (Feb. 3, 2016, 
        request; March 24, 2016, answer)
        - 160 days to tell the Committee which offices within the 
        Veterans Health Administration (VHA) were writing reports 
        required by the fiscal year 2016 Military Construction and 
        Veterans Affairs Appropriations bill. By the time the 
        Committee's question was answered, the reports had already been 
        sent to the Appropriations Committee. (Jan. 7, 2016, request; 
        June 17, 2016, answer)
        - 42 days to send the Committee a White Paper, written by VHA's 
        Pharmacy Benefits Management Service, on the potential effects 
        on what VHA pays for pharmaceuticals because of initiatives on 
        the November ballot in three states. (Mar. 30, 2016, request; 
        May 12, 2016, answer)

    Chairman Isakson. Also, for the Ranking Member's 
edification, while he was away, Senator Manchin was 
involuntarily assigned by me, and Senator Rounds, who left 
early and was assigned by me, are going to co-chair a 
roundtable in this room hopefully before the 15th of July with 
the appropriate people at the VA and each of the caseworkers in 
our offices back home, so we get some one-on-one dialog back 
and forth supporting that much-needed communication.
    Senator Blumenthal. I think that is an excellent idea, and 
as usual, the Chairman's best decisions are made without my 
being in the room.
    Chairman Isakson. I would never agree to that, but you 
clean up what I mess up, which I appreciate a lot.
    Senator Blumenthal. I really, very seriously, think it is a 
great idea. Thank you, Mr. Chairman.
    Chairman Isakson. This was a tough hearing, and I 
understand--yes, Senator Sullivan.
    Senator Sullivan. Mr. Chairman, I just want to reiterate 
what the Ranking Member said. I think it is really important as 
a follow-up to this hearing to get a full briefing from senior 
officials at the VA, but probably more important, senior 
officials at the Justice Department.
    This issue of accountability is an enormously important one 
for literally millions of Americans. For us to work through it 
as a Congress and pass legislation and then have the Attorney 
General of the United States essentially say, ``Sorry, I am not 
going to enforce it because I think it is unconstitutional,'' 
we need a heck of a lot more of a detailed briefing, very 
detailed briefing. Again, it should have been done well before 
they started to implement this policy.
    I just want to thank Senator Blumenthal for that good 
suggestion, and I certainly will be somebody who attends that 
briefing when we get it with the Justice Department. It should 
be soon. It should be real soon. I think they owe it to us.
    Chairman Isakson. Well, the Ranking Member and I will make 
that request to DOJ as expeditiously as possible, and we have a 
meeting in an hour where we can begin that process.
    What I was about to say a minute ago is, Colonel, this was 
a tough hearing, and it was a tough hearing because there are 
some tough issues to be dealt with at the Veterans 
Administration.
    You are going to be--if you are confirmed for this 
position, which, hopefully, we will move expeditiously to get 
that confirmation moving. So, if you are confirmed for this 
position, you have got a big job and you have a short period of 
time to fulfill it, about seven months.
    We are serious as a heart attach about trying to get to the 
bottom of this issue in terms of more timely responses, number 
1, and clear, streamlined accountability in the Veterans 
Administration, and an explanation for the Attorney General's 
decision, and the subsequent acceptance of the Secretary of the 
Attorney General's decision, not to enforce the law of the land 
passed by the Congress of the United States and signed by the 
President of the United States.
    With that, it has been a great day. We are delighted to 
have your family here today.
    We will leave the record open for a----
    Senator Blumenthal. Can I make one quick comment?
    Chairman Isakson. Senator Blumenthal.
    Senator Blumenthal. Pardon me, Mr. Chairman.
    It has been a tough hearing, but you have done a really 
good job at this hearing. I look forward, as the Chairman does, 
to your swift confirmation.
    Senator Sullivan. Mr. Chairman, I would just add that I 
agree with that. And I certainly plan on voting for Colonel 
O'Connor, and hopefully, we get him in there soon.
    Chairman Isakson. Nobody is going to know their job better 
than you by the time you get there; I can promise you that.
    We appreciate your being here. We appreciate your family 
being here. We wish you the best of luck.
    This Committee meeting stands adjourned.
    [Whereupon, at approximately 3:35 p.m., the Committee was 
adjourned.]

    [The posthearing questions to Colonel O'Connor follows:]
 Response to Posthearing Questions Submitted by Hon. Johnny Isakson to 
    Christopher E. O'Connor, Nominee to be Assistant Secretary for 
  Congressional and Legislative Affairs, U.S. Department of Veterans 
                                Affairs
    Question 1.  In response to pre-hearing questions, you stated that 
VA's goal is to respond to simple questions from Congress within 48 
hours and to all other questions from Congress within 10 business days.
    A. For each of the past 2 years, what percentage of the time did VA 
meet those timeliness goals overall for Congressional requests?
    Response. During the last two years, VA has conducted or provided 
responses to:

 
------------------------------------------------------------------------
                                                        FY2016 (FYTD-May
                                          FY2015           31, 2016)
------------------------------------------------------------------------
Hearings..........................  79                 50
Delivery of on time testimony.....  94%                91% (Goal is 90%)
Briefings.........................  782                586
Requests for Information (RFIs)...  2,984              1,879
Technical Assistance..............  348                503
Questions for the Record (QFRs)...  38 Sets (631       25 Sets (273
                                     Questions)         Questions)
Delivery of on time QFRs..........  77%                68% (Goal is 85%)
Executive Letters.................  549 (31 bus.       475 (46 bus.
                                     days)              days)
Constituent Casework..............  27,853             19,835
------------------------------------------------------------------------


    VA's guidelines indicate that ``simple'' requests for information 
(RFIs) are to be answered within 48 hours and other questions should be 
provided an answer within 10 business days. OGR does not maintain 
performance metrics against these RFI guidelines for the nearly 3,000 
inquiries that pass through the office on an annual basis. I am 
evaluating establishing performance metrics for RFIs; however, the 
varying complexity of each RFI makes it difficult to compare 
responsiveness. I recognize the need to better measure responsiveness, 
which is why I am working with internal organizations to streamline the 
process by which OGR receives answers to RFIs that are taking over 10 
business days to complete.

    B. For each of the past 2 years, what percentage of the time did VA 
meet those goals for requests from Members of this Committee?
    Response. During the last two years, VA has conducted or provided 
responses to SVAC for:

 
------------------------------------------------------------------------
                                          FY2015         FY2016 (FYTD)
------------------------------------------------------------------------
Hearings..........................  12                 8
Delivery of on time testimony.....  100%               100% (Goal is
                                                        90%)
Briefings.........................  151                109
Requests for Information (RFIs)...  451                26
Technical Assistance..............  215                393
Questions for the Record (QFRs)...  12 Sets (147       8 Sets (62
                                     Questions)         Questions)
Delivery of on time QFRs..........  58%                75% (Goal is 85%)
Executive Letters.................  29 (27 bus. days)  40 (37 bus. days)
Constituent Casework..............  444                251
------------------------------------------------------------------------


    Question 2.  At the hearing, you testified that the Office of 
Government Relations generates a weekly report on outstanding requests 
from Congress.
    A. Currently, how many requests from Members of this Committee have 
not yet been fulfilled?
    Response. Per OGR Workload Dashboard of June 23, 2016, the 
following SVAC items were identified as outstanding:

 
------------------------------------------------------------------------
                                                       SVAC
------------------------------------------------------------------------
Requests for Information................  17
Technical Assistance on Legislation.....  6
Questions for the Record................  3 Sets (112 Questions)
Executive Letters.......................  0
Briefing Requests.......................  5
Constituent Casework....................  30
------------------------------------------------------------------------


    B. Of those requests that have not been fulfilled, how many have 
been pending longer than 10 business days?
    Response. Per OGR Workload Dashboard of June 23, 2016, the 
following SVAC items were outstanding longer than 10 business days:

 
------------------------------------------------------------------------
                                                       SVAC
------------------------------------------------------------------------
Requests for Information................  4
Technical Assistance on Legislation.....  3
Questions for the Record................  2 Sets (59 Questions)
Executive Letters.......................  0
Briefing Requests.......................  5
Constituent Casework....................  13
------------------------------------------------------------------------


    Question 3.  At a House Veterans' Affairs Committee hearing on 
June 23, 2016, VA expressed regret for lack of timely notification to 
Congress about VA's recent decisions to retire VistA and discontinue 
use of its expedited firing authority for senior executives.
    A. Under what circumstances is it VA's policy to proactively notify 
Congress about significant new information, incidents, policy changes, 
or other emerging issues?
    Response. While there is no official VA policy directive, it is my 
intent that Congress always learns of announcements with Congressional 
interest prior to them being made public. To the extent that OGR is 
made aware of decisions and provided information with which to notify 
appropriate staff, there should be no surprises for Members and 
congressional staff as the Department unveils new initiatives, 
personnel decisions, incidents, and other key information.

    B. Were those policies followed with respect to the issues 
mentioned above? If not, what factors led to that failure to follow the 
policy?
    Response. Both of these incidents could have been better 
coordinated. In the case of discontinued use of expedited firing 
authority, SVAC staff was notified ahead of public release, but we 
failed to notify the remainder of our oversight committees. In the case 
of any VistA-related decisions, this topic was discussed in an SVAC 
hearing and was then incorrectly characterized by the media. Additional 
pre-coordination would have ensured Congress had been provided more up-
to-date information.

    C. What steps can be taken to ensure that Congress is being 
proactively notified of emerging issues in the future?
    Response. OGR will work to do a better job both ensuring the office 
has visibility of emerging issues and coordinating any announcement 
within the Department to ensure that Congress is appropriately 
notified. If confirmed, I will speak with leaders in the Department to 
underscore the need for thorough coordination that explicitly addresses 
the requirement to notify Congress in a timely manner, ahead of any 
public announcement.

      

                                  [all]
</pre></body></html>
